U.S. CENSUS BUREAU
The Census Bureau Lacks
Accurate and Informative
Cost Data to Guide
2020 Census Research
Through a Constrained
Budget Environment

FINAL REPORT NO. OIG-14-021-A
MAY 21, 2014



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation




FOR PUBLIC RELEASE
                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                         Office of Inspector General
                                                        Washington, D.C. 20230




May 21, 2014

MEMORANDUM FOR: 	 Mark E. Doms
                  Under Secretary for Economic Affairs

                             John H. Thompson
                             Director, U.S. Census Bureau


FROM: 	                      Ann C. Eilers   J,,,_ C£tn
                             Principal Assistant Inspector General for Audit and Evaluation

SUBJECT: 	                   The Census Bureau Lacks Accurate and Informative Cost Data to Guide
                             2020 Census Research Through a Constrained Budget Environment­
                             Final Report no. OIG-14-021-A

We are providing our final report for our review of the Census Bureau's implementation of
mandatory budget reductions during fiscal years (FYs) 2013 and 2014. This audit, part of OIG's
FY 2013-2014 audit plan, was conducted to (I) evaluate the Bureau's process for implementing
mandatory budget reductions, (2) assess the effects of these reductions on the Bureau's ability
to reduce the per-household cost of the 2020 Census, and (3) evaluate the ro les of the
Department and the Economics and Statistics Administration (ESA) in monitoring the Bureau's
progress toward this goal.

While we found that the Census Bureau generally adhered to guidance for implementing
mandatory budget reductions, we identified four areas of concern:

   •	   We were unable to assess the impact of budget reductions on the Bureau's goal of
        reducing 2020 Census per-household cost because specific budget-year activities were
        not integrated with the budget, and funding reductions are not tied to programmatic
        changes. In addition, budget reduction decisions did not include an analysis of project
        cost versus achievements to date because the accounting system does not contain
        accurate project cost data. Further, some research and testing monies may be funding
        other activities that should be funded by separate appropriation accounts.

   •	   Budget fund transfers prevent the Bureau from validating budget estimates and 

        identifying inaccurate project costs. 


   •	   The Bureau does not have support for budget requests.

   •	   Although the Department's Office of Budget and ESA provide high-level budget
        oversight, ESA needs to develop a stronger oversight process for monitoring the
        Program's progress in reducing 2020 decennial costs.
In the Bureau's response to our draft report, it concurred with all of our recommendations.
Where appropriate, we have modified the final report based on this response. The formal
response is included as appendix C. The final report will be posted on the OIG's website
pursuant to section SM of the Inspector General Act as of 1978, as amended. In accordance
with Department Administrative Order 213-5, within 60 days of the date of this memorandum,
please provide us with an action plan that responds to all of the report recommendations.

We thank Census Bureau personnel for the courtesies shown to us during this review. Please
direct any questions or comments about the report to Carol Rice, Division Director, at (202)
482-6020, or Terry Storms, Auditor and audit manager, at (202) 482-0055.


Attachment

cc: 	   Ellen Herbst, Chief Financial Officer and Assistant Secretary for Administration
        Nancy Potok, Deputy Director and Chief Operating Officer, Census Bureau
        Joanne Buenzli Crane, Associate Director for Administration and Chief Financial Officer,
          Census Bureau
        Frank Vitrano, Associate Director for Decennial Census Programs, Census Bureau
        Timothy Trainor, Chief, Geography Division, Census Bureau
        Burton Reist, Chief, 2020 Census Research and Planning Office, Census Bureau
        Adam Miller, Audit Liaison, Census Bureau
        Pam Moulder, Program Analyst, Economics and Statistics Administration
                                            Report In Brief                                         MAY 21, 2014



Background                            U.S. CENSUS BUREAU
At a cost of $94 per household,
the life-cycle cost of the 2010
                                      The Census Bureau Lacks Accurate and Informative Cost Data to
Census was about $13 billion.         Guide 2020 Census Research Through a Constrained Budget
The Census Bureau is committed        Environment
to conducting the 2020 Census
for less, per household, than the     OIG-14-021-A
2010 Census. To achieve this
goal, the Bureau must make fun-       WHAT WE FOUND
damental changes to the design,       The Census Bureau’s Decennial Program generally adhered to Office of Management
implementation, and management        and Budget and Departmental guidance for implementing mandatory budget
of the decennial census. If the       reductions. However, we found that
Bureau fails to innovate in these     • 	Due to inaccurate cost information, the impact of budget reductions
areas, the per-household cost of         cannot be determined. The internal control weaknesses we observed involve
the 2020 Census could reach $148.        significant deficiencies in the Decennial Program’s method for recording salary costs.
Decennial census life cycles are         Neither specific project costs nor the cost of the entire Decennial Program’s research
unusual in that budget requests          effort to date can be determined, because project costs are recorded in the
are based on a 12-year escalating        accounting system simply to match previously set budget allocations. In addition, some
cost, as opposed to a typical flat-      projects may be subsidizing other activities under separate appropriation accounts.
line budget. Funding for the 2020     • 	Budget fund transfers prevent the Bureau from validating budget
decennial Census lifecycle began
                                         estimates and identifying inaccurate project costs. The Decennial Program’s
with fiscal year (FY) 2012 and will
                                         practice of transferring budget between projects circumvents spending controls, 

continue through FY 2023. This
                                         thereby increasing the risk that incorrect or even fraudulent charges could be 

protracted life cycle with many
dependent phases, along with cost        recorded without detection.

accounting and budget formulation     • 	The Decennial Program does not have support for budget requests.
issues noted during the audit, may       Decennial Program management did not provide us with documentation supporting

hinder the Bureau’s ability to con-      FYs 2013 and 2014 Congressional budget justifications that tied specific requests in 

trol the cost of the 2020 Census.        the President’s Budget to specific project activities.
                                      • 	ESA should develop a stronger oversight process for monitoring the
Why We Did This Review                   Decennial Program’s progress in reducing 2020 decennial Census costs.
The Office of Inspector General          ESA has no specific process in place to monitor the research and testing goals related
is committed to monitoring the           to 2020 decennial Census planning.
progress of planning for the 2020
Census, and includes ongoing          WHAT WE RECOMMEND
reviews in its annual audit plan.     We recommend that the Director of the Census Bureau develop
This audit was conducted to           1.	 A process to ensure project costs reflect actual level of effort (a) in the short term,
(1) evaluate the Bureau’s process         by requiring all Census Bureau employees to accurately record project hours
for implementing recent budget            through webTA (an Internet-based time tracking system), and (b) in the long term,
reductions; (2) assess the impact         by implementing an activity-based costing system, with appropriate internal
of these reductions on the Bu-            controls, that reflects actual project cost and reconciles with the accounting system.
reau’s goal of achieving a cost-      2.	 Policies and procedures that require supporting documentation for budget estimate
effective, high-quality 2020 Cen-         decisions be prepared and retained for audit.
sus; and (3) evaluate the roles of
the Department and the Econom-        3.	 A process to validate budget estimates that (a) incorporates actual costs recorded
ics and Statistics Administration         in the accounting system and (b) uses budget-to-actual cost information to identify
(ESA) in monitoring the Bureau’s          incorrect project charges.
progress toward this goal.            We also recommend that the Director of the Census Bureau and Under Secretary for
                                      Economic Affairs develop
                                      4.	 A process to ensure that ESA has sufficient oversight of the 2020 Decennial
                                          Program.
 U.S. DEPARTMENT OF COMMERCE                                                                                           OFFICE OF INSPECTOR GENERAL




Contents
Introduction .......................................................................................................................................................1

Objectives, Findings, and Recommendations .............................................................................................5

   I.	 Due to Inaccurate Cost Information, the Impact of Budget Reductions Cannot Be 

       Determined ............................................................................................................................................6

       A.	 Salary Costs Are Recorded in the Accounting System Based on Budgeted Allocations, 

           Not Actual Hours Worked...........................................................................................................6

       B.	 Some Projects May Be Subsidizing Other Activities Under Separate Appropriation 

           Accounts............................................................................................................................................9

   II.	 Budget Fund Transfers Prevent the Bureau from Validating Budget Estimates and 

        Identifying Inaccurate Project Costs.............................................................................................. 11

   III.	 The Decennial Program Does Not Have Support for Budget Requests .............................. 12

   IV.	 Economics and Statistics Administration Should Develop a Stronger Oversight Process
        for Monitoring the Decennial Program’s Progress in Reducing 2020 Decennial Census
        Costs..................................................................................................................................................... 13

   Recommendations ..................................................................................................................................... 13

Summary of Agency Response and OIG Comments............................................................................. 14

Appendix A: Objectives, Scope, and Methodology................................................................................ 15

Appendix B: Census Bureau Budget Elements........................................................................................ 17

Appendix C: Agency Response................................................................................................................... 20





                                                                                                                       COVER: Detail of fisheries pediment,
                                                                                                           U.S. Department of Commerce headquarters,
                                                                                                                   by sculptor James Earle Fraser, 1934
 U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL


Introduction

At a cost of $94 per household, the life-cycle cost of the 2010 Census was about $13 billion.
The Census Bureau is committed to conducting the 2020 Census for less, per household, than
the 2010 Census. To achieve this goal, the Bureau must make fundamental changes to the
design, implementation, and management of the decennial Census. If the Bureau fails to innovate
in these areas, the per-household cost of the 2020 Census could reach $148 (see figure 1).

This audit was conducted to (1) evaluate the Bureau’s process for implementing recent budget
reductions; (2) assess the impact of these reductions on the Bureau’s goal of achieving a cost-
effective, high-quality 2020 Census; and (3) evaluate the roles of the Department and the
Economics and Statistics Administration (ESA) in monitoring the Bureau’s progress toward this
goal.

          Figure 1. Average Cost of Counting Each Housing Unit Each Decade


                                                                                    $148
           $150
                                                                                 (Estimate)




           $100                                                               $94


                                                                  $68



             $50                                    $39
                                      $28

                        $14


              $0
                       1970          1980          1990          2000          2010          2020

            Source: U.S. Census Bureau, United States Census 2020 Business Plan for the 2020 Census in
            Support of the FY 2013 Budget Submission (April 23, 2012)

Decennial Census life cycles are unusual in that budget requests are based on a 12-year
escalating cost, as opposed to a typical flat-line budget. Funding for the 2020 decennial lifecycle
began with fiscal year (FY) 2012 and will continue through FY 2023. This protracted life cycle
with many dependent phases, along with cost accounting and budget formulation issues noted
during the audit, may hinder the Bureau’s ability to control the cost of the 2020 Census. In this
audit report, we have identified significant internal control weaknesses that prevent the Bureau
from assessing (1) the effects of reduced funding, (2) return on investment of current research



FINAL REPORT NO. OIG-14-021-A                                                                              1
    U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL


and testing (R&T) projects, and (3) variance between budgeted versus actual costs when
implementing budget reductions. Past oversight reports1 have highlighted similar weaknesses,
but the weaknesses persist. We also observed that ESA lacks adequate oversight processes for
monitoring the Decennial Program.

The Office of Inspector General is committed to monitoring the progress of planning for the
2020 Census, and includes ongoing reviews as a part of its annual audit plan. As noted in our
December 2013 report,2 the Decennial Program has yet to integrate cost and schedule
activities to help managers accurately track the status of funds and forecast impending
underruns and overruns. In its response to this report, Census Bureau management stated they
are working toward developing earned value management (EVM), which combines measures of
a project’s schedule and cost to forecast performance problems.3 In December 2013 we
reported that the Decennial Program needs EVM to provide valid, timely, accurate, and
auditable performance information to make informed project management decisions. Based on
our current findings, incorporating EVM or a similar tool may not address project management
challenges; the Decennial Program must also make significant changes to the manner in which it
tracks costs.

The Bureau’s spending authority includes two appropriation accounts and the Working Capital
Fund (see appendix B); each finances specific budget activities, subactivities, and programs. The
combined 2020 Census research effort—carried out by the Associate Director for Decennial
Census Programs and the Associate Director for 2020 Census, referred to in this report as
“the Decennial Program”—is under the Periodic Censuses and Programs appropriation account
(see figure 2). These two directorates conduct the research responsible for developing an
innovative and cost-effective design.4 See appendix B for a comprehensive list of activities and
programs funded by each appropriation account and the Working Capital Fund.

Appropriations law states that public funds may be used only for the purposes for which they
were appropriated. Further, it prohibits charging authorized items to the wrong appropriation.5
Spending is strictly limited to amounts established within an appropriation, and one
appropriation account generally cannot subsidize or augment another appropriation account.
Additionally, according to the Department’s Budget, Performance and Program Analysis Handbook,
budgets must be formulated on a program basis, with an emphasis on the objectives, outputs,
and work to be accomplished with the proposed resources—and the budget should be

1
  See U.S. Department of Commerce Office of Inspector General, March 29, 1993. Final Report on Inspection of the

New York Regional Office Bureau of the Census (IRM-5032). Washington, D.C.: OIG, and U.S. General Accounting

Office, October 4, 2001. 2000 Census Better Productivity Data Needed for Future Planning and Budgeting, GAO-02-4. 

Washington, D.C.: GAO. 

2
  U.S. Department of Commerce Office of Inspector General, December 3, 2013. 2020 Census Planning: Research 

Delays and Program Management Challenges Threaten Design Innovation, OIG-14-003-A. Washington, D.C.: OIG.

3
  Earned value management (EVM) allows project managers to (a) forecast cost or schedule overruns at an early

stage in a project and (b) monitor the project plan, actual work, and work-completed values to determine whether

a project is on track. 

4
  Bureau officials anticipate subsuming the 2020 Census Directorate under the Decennial Census Directorate, 

which was responsible for planning and implementing the 2010 Census.

5
  See 31 U.S.C. § 1301.




FINAL REPORT NO. OIG-14-021-A                                                                                    2
 U.S. DEPARTMENT OF COMMERCE                                                                     OFFICE OF INSPECTOR GENERAL


executed as justified. Within the Bureau, however, internal control weaknesses over cost
accounting practices increase the risk of noncompliance with these authorities.

         Figure 2. 2020 Decennial Census Research Effort Organization Chart,
                                with Funding Sources



                                                                    Director,
                                                                 Deputy Director




                                                  Associate Director
                                                                            Associate Director
                                                 for Decennial Census
                                                                             for 2020 Census
                                                      Programs



                                                  Assistant Director           American
                                                    for Decennial
                    Periodic Censuses                                       Community Survey

                      and Programs
                     Appropriation                     Decennial
                                                                             2020 Research and
                                                      Management
                         Account                                              Planning Office



                                                        Decennial           Demographic
                                                    Statistical Studies       Statistics
                                                                          Programs Budget
                                                                              Activity
                                                   Decennial Systems
                                                     and Contracts
                                   Geography
                                    Division


                                  Geographic
                                Support Budget
                                   Activity




                  Source: U.S. Census Bureau

The Bureau must equip itself with accurate and informative programmatic data to help guide
research and maximize return on investment in the face of budget reductions. Table 1 identifies
the Bureau’s FY 2013 and FY 2014 budget requests compared to the amount of funding it
actually received. The Bureau’s total spending authority, reduced in FY 2013 by sequestration,
was reduced again in FY 2014 by an omnibus spending bill that was 4 percent less than the
estimated need in the President’s budget request. The Bureau planned to complete the R&T
phase in FYs 2012–2014, resulting in new design options for conducting the 2020 Census.
Additional R&T and the subsequent design decisions must be completed early enough to permit
operational development and systems testing. However, in our December 2013 report we
noted that the Bureau is already suffering from research delays and program management
challenges that are placing innovations to the 2020 Census design at risk.




FINAL REPORT NO. OIG-14-021-A                                                                                           3
    U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL


                    Table 1. 2020 Census Research Budget Request and Reductions
                             in Spending Authority (Dollars in Thousands)

                                                                                                       Spending
                                                                                                       Authority
                                                  2010              2020                              Dedicated to
                                  Budget        Decennial         Decennial         Geographic        2020 Census
                                 Authoritya     Programb          Programc           Support           Research

              President’s
              Estimated Budget    $970,425       $297,262           $131,425           $66,035             51%
              (February 2012)
    FY 2013




              Post-
              Sequestration
                                  $858,926       $274,153           $94,412            $61,434             50%
              Budget
              (March 2013)d


              President’s
              Estimated Budget    $982,484          N/A             $486,572           $55,613             55%
              (April 2013)
    FY 2014




              Omnibus
              Spending Bill       $944,000          N/A             $463,287           $55,613             55%
              (January 2014)


Sources: Department of Commerce, 2013 and 2014 Congressional budget justifications; Census Bureau operating

plans, FYs 2013 and 2014

a
  This is the sum of the Salaries and Expenses and Periodic Censuses and Programs appropriation accounts.

b
  During FY 2013, the 2010 Decennial Program included programs, such as the 2010 Census Program of

Evaluations and Experiments, that contributed to the 2020 Decennial Program’s research effort.
	
c
  During FY 2014, the 2020 Decennial Program includes the American Community Survey.

d
  These values represent the finalized spending authority as a result of sequestration, which went into effect March

2013. 





FINAL REPORT NO. OIG-14-021-A                                                                                       4
    U.S. DEPARTMENT OF COMMERCE                                                OFFICE OF INSPECTOR GENERAL


Objectives, Findings, and Recommendations

Our audit of the Decennial Program’s implementation of FYs 2013 and 2014 mandatory budget
reductions, which forced the Bureau to operate under reduced spending authority,6 had three
objectives. First, we evaluated the Decennial Program’s process for implementing mandatory
reductions. Next, we examined the effects of these reductions on the program’s ability to
reduce the per-household cost of the 2020 Census. Finally, we evaluated the oversight roles of
the Department and ESA in this process. We focused on the 2020 Census research effort;
other activities unrelated to the Decennial Program were not included in testing, although this
report does reference other Bureau activities that may be affected by issues noted in the
Decennial Program. For a further discussion of our scope and methodology, please refer to
appendix A.

The Decennial Program generally adhered to Office of Management and Budget (OMB) and
Departmental guidance for implementing mandatory budget reductions. However, we were
unable to assess the impact of budget reductions on the Bureau’s goal of reducing 2020 Census
per-household cost because specific budget year activities were not integrated with the budget,
and funding reductions are not tied to programmatic changes (see finding I). In addition, budget
reduction decisions did not include an analysis of project cost versus achievements to date
because the accounting system does not contain accurate project cost data (see finding I.A).
Further, some R&T project monies could be funding other activities that should be funded by
separate appropriation accounts (see finding I.B).

These internal control weaknesses put the Decennial Program as well as the Bureau at risk of
noncompliance with appropriations authorities. Additionally, inadequate controls over budget
formulation and execution leave the Decennial Program without necessary information
required to make informed budget-reduction decisions while striving to achieve a cost-effective
2020 Census.

We also found that budget fund transfers prevent the Bureau from validating budget estimates
and addressing inaccurate project costs (see finding II). Further, we found that the Bureau has
not prepared and retained adequate documentation for connecting its budget requests with
programmatic goals (see finding III). Finally, although we found that the Department’s Office of
Budget and ESA provide high-level budget oversight, ESA does not currently receive
documentation supporting Decennial Program research goals or budget reduction decisions.
This information would enable ESA to assess the reasonableness of programmatic claims and
decisions and to inform stakeholders of potential issues as they arise.




6
 FYs 2013 and 2014 began with continuing resolutions. Sequestration—a provision of the Budget Control Act of
2011—occurred on March 1, 2013, resulting in a mid-year budget reduction.



FINAL REPORT NO. OIG-14-021-A                                                                                  5
      U.S. DEPARTMENT OF COMMERCE                                                OFFICE OF INSPECTOR GENERAL


I.	     Due to Inaccurate Cost Information, the Impact of Budget Reductions Cannot Be
        Determined

 The internal control weaknesses we observed involve significant deficiencies in the Decennial
 Program’s method for recording salary costs. The Department’s Accounting Principles and
 Standards Handbook requires that actual costs be recorded in the accounting system. However,
 employee salary costs, in hours, are charged to projects based on predetermined budget
 allocations, not based on actual hours worked. In addition, these recorded salary costs do not
 necessarily account for what the employee actually worked on. As a result, neither specific
 project costs nor the cost of the entire Decennial Program’s research effort to date can be
 determined, because project costs are recorded in the accounting system simply to match 

 previously set budget allocations.


 Inaccurately recording costs in the accounting system limits the Decennial Program’s ability to
 assess the current financial status of any project or program, compared with milestones and
 deliverables, and to validate the reasonableness of cost estimates. Without accurate cost
 information, the Decennial Program’s management cannot make informed decisions when
 assessing return on investment and determining which project schedules should be altered to
 implement budget reductions. With the inaccurate accounting practices noted in this report,
 the Bureau also risks violating certain components of appropriations law. Without knowing
 precisely which resources are spent on which activities, the Bureau cannot ensure that
 appropriated or apportioned funds are used to pay for only those activities for which they were
 authorized or could unknowingly obligate in excess of appropriated funds.

 A.	 Salary Costs Are Recorded in the Accounting System Based on Budgeted Allocations, Not Actual

     Hours Worked


        To effectively manage a program of the size, complexity, and cost of the 2020 Census—and
        assess the return on investment of research efforts—managers need accurate accounting
        records. However, Decennial Program management and division staff stated during the audit
        that employee salary costs are charged to projects based on budgeted hours rather than
        actual hours worked.

        During budget execution, program management assigns each employee’s full-time equivalent
        (FTE) to one or more projects. If an employee is assigned to more than one project, a
        specified portion of the employee’s FTE is allocated to each project. The Budget Office
        provides timekeepers with budget allocation spreadsheets that identify the percentage of
        each employee’s time that should be charged to each project per pay period, as determined
        during budget execution. In some divisions, timekeepers enter and validate time and
        attendance entries each pay period on behalf of employees in an Internet-based system
        (webTA7). In other divisions, employees record and validate their own webTA entries, and


 7
  WebTA is a web-based time and labor system that allows employees to input and certify time and supervisors to
 approve leave requests and to certify time cards online, all in one system. WebTA information updates the
 accounting system—where final costs are recorded.




 FINAL REPORT NO. OIG-14-021-A                                                                                    6
    U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL


      timekeepers review those entries.8 Regardless of which method is used, each employee’s
      salary is charged to predetermined projects according to the predetermined budget
      allocations without regard to which project or projects the employee actually works on.

      We attempted to identify employees charging incorrect R&T project codes in webTA by
      comparing project team rosters to webTA charges. The Decennial Program did not have
      project rosters prior to our request and needed to prepare the rosters during audit
      fieldwork.9 The Decennial Program supplied rosters for less than half of the R&T projects
      (16 of 64). When we selected seven projects for review and compared employees listed on
      the roster to employees charging costs in webTA (see figure 3), we noted significant
      discrepancies.

               Figure 3. Team Rosters and Employee webTA Discrepancies
                               on Selected R&T Projects

                    Listed on Roster
                     & Charging in
                         webTA
                       (32 Employees)




                       Listed on
                        Roster                               Charging in webTA
                     (147 Employees)                             (600 Employees)




                 Source: OIG analysis of U.S. Census Bureau information




8
  We documented this process during interviews with the Decennial Program staff; however, it appears that this
same process to allocate salary expenses is utilized to record charges to all three appropriation accounts—see
appendix B.
9
  WebTA could not be used to generate reliable rosters because employees may have charged time in webTA to
incorrect projects.




FINAL REPORT NO. OIG-14-021-A                                                                                    7
 U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL


     For example, we reviewed seven project rosters with a total of 147 employees; however,
     600 employees charged costs to these seven projects in webTA.10 Only 32 employees were
     listed on the project roster and charged costs to the same project in webTA. However,
     even for these 32 employees, there is no assurance the hours charged in webTA accurately
     reflect the employees’ actual hours worked on the relevant project, because all webTA
     charges are based on predetermined budget amounts.

     We attempted to quantify the effect of inaccurate hours charged to projects by comparing
     hours logged in Primavera11—an activity-based tracking system used by employees in the
     Bureau’s Geography Division—with webTA hours. In FY 2013, the Geography Division
     attempted to track the actual number of hours its employees worked on 2020 Census R&T
     projects using Primavera. We compared the number of hours Geography Division
     employees claimed to have worked on 2020 Census R&T projects during FY 2013 in
     Primavera, with the number of hours R&T projects paid for these employees, via webTA.
     We found that 67 Geography Division employees recorded in Primavera that they actually
     worked 10,381 hours on R&T projects. However, the number of hours charged to R&T
     projects, via webTA, for the services of those 67 employees differs significantly from what
     the employees recorded in Primavera. Forty-six of those employees recorded that they
     spent 6,067 hours working on R&T projects but charged zero hours in webTA. The
     remaining 21 employees recorded that they spent 4,314 hours working on R&T projects,
     but R&T projects paid those 21 employees for 20,702 hours recorded in webTA. According
     to the activity-based records in Primavera and the actual salary cost recorded in webTA,
     Geography Division employees who worked on 2020 Census R&T projects during FY 2013
     charged nearly twice the number of hours to the projects than they actually worked on
     them.

     The difference of 10,320 hours could not be resolved because the Primavera system was
     not properly programmed to match the detail of webTA, which included project codes for
     all R&T projects; however, Primavera captured work on any and all R&T projects as a single
     entry, and did not differentiate between the various R&T projects.12 In addition, the
     Geography Division made no attempt to reconcile the two systems throughout the fiscal
     year. See table 2 for further analysis of the discrepancies between Primavera and webTA
     time charges. While Geography Division management is aware of these discrepancies, it
     offered no explanation.




10
   Because employees may work on more than one of the seven projects reviewed, an employee may be counted
more than once within or across the three groups.
11
   Primavera is an Oracle software system that helps organizations (a) identify, prioritize, and select project
investments and (b) plan, manage, and control projects. The Census Bureau uses the Primavera system only to
capture R&T work as a single line item. Its employees did not record how many hours they spent working on
specific projects.
12
   Each of these 67 employees claimed to have worked at least 1 hour on an R&T project during FY 2013.




FINAL REPORT NO. OIG-14-021-A                                                                                     8
 U.S. DEPARTMENT OF COMMERCE                                              OFFICE OF INSPECTOR GENERAL




                         Table 2. Erroneous Geography Division Hours

                            Charged to 2020 Census R&T Projects


                                                                          Hours
                                                          Hours Worked   Charged     R&T Project
  Geography Division Employee “Group”                      (Primavera)   (webTA)     Overcharge
  Actual Hours Worked Less Than webTA
                                                              3,720       20,145        16,424
  (n = 20 employees)

  Actual Hours Worked but No webTA
                                                              6,067         0           (6,067)
  (n = 46 employees)

  Actual Hours Worked Approximates webTA
                                                              594          557           (37)
  (n = 1 employee)

                                              Totals         10,381      20,702         10,320

 Source: OIG analysis of U.S. Census Bureau information

    Inadequate accounting for an employee’s actual work and level of effort required in
    accomplishing project goals and inaccurate project costs hinder the Decennial Program’s
    ability to assess the return on investment of research efforts. It also makes it difficult to
    make informed decisions about how to implement budget reductions.

B. Some Projects May Be Subsidizing Other Activities Under Separate Appropriation Accounts

    Employees working on R&T projects are frequently assigned to work on multiple projects
    that sometimes are funded by different appropriation accounts, different budget activities or
    subactivities, or different programs identified in the Bureau’s apportionment request to
    OMB. These various appropriations and apportionments must be used to fund only those
    activities for which the resources were authorized. However, salary charges are not tracked
    or billed according to work actually performed.

    Just as the Decennial Program has no method of reconciling budgeted amounts with actual
    hours worked (and thus confirm that all projects are charged according to the actual level
    of effort performed to complete the project), the program also lacks controls to ensure
    that appropriated and apportioned funds are used to pay for the activities for which they
    were approved. Without such safeguards, the Bureau risks augmenting the budget of one
    appropriation with funds approved for another appropriation or exceeding an appropriation
    account or the apportionments set within it.




FINAL REPORT NO. OIG-14-021-A                                                                       9
  U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL
 



                         Figure 4. How Employees on R&T Projects Charge in webTA




              Source: OIG Analysis of U.S. Census Bureau information


       For example, we found 858 employees whose salaries (in part or total) were charged to an
       R&T project. As illustrated in figure 4, out of these 858 employees, 307 (36 percent) also
       charged either a reimbursable project funded by a third party under the Working Capital
       Fund or a project funded under the Salaries and Expenses appropriation account.

       This practice of employees charging hours to multiple projects may be common but,
       because actual employee hours are not charged and recorded in the accounting system to
       correct projects, the costs charged to each of these projects are likely inaccurate. This
       increases the risk that the Bureau is mischarging reimbursable projects or spending
       appropriated or apportioned funds on activities outside the scope of those appropriations
       or apportionments. At the very least, the findings described in this section introduce the
       risk that the Bureau’s accounts could be spent
       beyond the purposes set by Congress in the
                                                                 U.S. Appropriations Law
       relevant appropriations acts and thus risk
       violating the Purpose Statute, 31 U.S.C. § 1301.                 Purpose Statute
       In addition, these cost accounting practices             (a) Appropriations shall be applied
       increase the chance that the Bureau could                only to the objects for which the
       incur actual costs for an activity in excess of          appropriations were made except as
       the amount available in the proper                       otherwise provided by law.
       appropriation account, thus risking possible             Source: 31 U.S.C. § 1301
       Anti-Deficiency Act violations.13


                                                            
13
     See 31 U.S.C. §1341



FINAL REPORT NO. OIG-14-021-A                                                                         10
       U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL


         Interviews with Decennial Program managers and timekeepers, along with a review of prior
         oversight reports, indicate that this method of charging costs is a long-standing Bureau
         practice. Program management recognizes that costs are not charged appropriately.
         Although past reviews found that the Bureau was not accurately recording costs, the
         Bureau has not addressed this weakness. The previously noted 1993 OIG inspection found
         the Bureau’s New York Regional Office assigned direct labor costs to certain reimbursable
         projects based on predetermined estimates rather than on actual hours worked. Also, as
         previously noted, in 2001 the Government Accountability Office found instances of Bureau
         employees charging their time incorrectly to projects. The Bureau agreed with findings in
         both reports and planned to implement corrective action.

         Similar to the issues noted in 1993 and 2001, we now find that the Decennial Program does
         not charge actual level of effort as costs to correct projects. As a result, salary costs
         recorded in the accounting system do not reflect actual project costs. Such inaccuracies do
         not simply affect the Decennial Program’s ability to make informed budget decisions when
         faced with reduced budgets. They also affect life-cycle cost projections, which may use
         historical project costs to estimate costs for the entire 2020 Decennial Census Program.

II.	     Budget Fund Transfers Prevent the Bureau from Validating Budget Estimates
         and Identifying Inaccurate Project Costs
  The Decennial Program’s practice of transferring budget14 between projects circumvents
  spending controls, thereby increasing the risk that incorrect or even fraudulent charges could
  be recorded without detection. This risk is increased further because actual costs are not
  charged to correct projects, and the budget is not integrated with project schedules. In
  addition, the Decennial Program cannot compare budget estimates to actual costs to validate
  the accuracy of estimates. The Department’s Accounting Principles and Standards Handbook
  establishes policy and prescribes a system for the administrative control of funds, including a
  requirement that the accounting system be able to establish and track the use of funds against
  limitations assigned (i.e., budget). Recording and monitoring project budgets and actual
  expenditures provides two critical internal controls: (1) validation of budget estimates and (2)
  comparison of actual project expenditures to planned expenditures to identify incorrect project
  charges.

  The Decennial Program’s 2020 Census R&T Phase Budget Management Plan (the Plan) provides
  guidance for developing budget estimates and tracking actual costs throughout the fiscal year.
  According to the Plan, the monthly Financial Management Report is used to identify project
  variance. Program leads are responsible for reviewing the Financial Management Report and
  ensuring that spending is in line with the operating plan. When variances are identified,
  Decennial Program leads must record variance explanations into the Decennial Management
  Division’s (DMD’s) cost model for projects that meet or exceed the thresholds set by the


  14
    “Budget” refers to a spending limit that is recorded in an accounting system during budget execution and

  prevents project managers from charging actual costs in excess of this limit. Therefore, “budget transfers,” as 

  referred to in this report, refers to changing project spending limits within the accounting system.





  FINAL REPORT NO. OIG-14-021-A                                                                                       11
        U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL


       DMD Budget Office. DMD management then transfers budget to projects with unfunded 

       requirements based on the information recorded by project leads.


       However, interviews with DMD subject matter experts indicate that they frequently identify
       salary costs charged to their project that cannot be reconciled with a specific project task
       because employees do not consistently charge salary costs to projects on which they actually
       perform work. If these employees do charge costs to the correct project, they do not charge
       actual hours worked on the project. In addition, because the budget is not tied to the project
       schedule, the project status cannot be used to verify that costs to date are reasonable given the
       project completion status. Because of these internal control weaknesses, employees
       responsible for monitoring project performance have no benchmark against which to measure
       actual cost. This reduces the likelihood that incorrect or fraudulent costs will be detected in a
       timely manner. The process of transferring budget further eliminates controls over spending
       that are meant to ensure that project cost estimates are reasonable and only allowable costs
       are charged.

III.       The Decennial Program Does Not Have Support for Budget Requests
       Decennial Program management did not provide us with documentation supporting FYs 2013
       and 2014 Congressional Budget Justifications (FTEs and dollars) that tied specific requests in the
       President’s Budget to specific project activities. The Bureau’s Congressional Budget Justification
       for the Decennial Program included resource requests of 611 FTEs and $131,425,000 in FY
       2013 and 862 FTEs and $244,772,000 in FY 2014. The Department’s Budget, Performance, and
       Program Analysis Handbook requires operating units to maintain program and financial
       management data that, while not routinely provided to the Department, is expected to be
       available for special analyses or as backup information in the justification and review of budgets.
       Such data should include object class detail at the program, project, and activity level, as well as
       worksheets and working papers in support of the budget. The latter would contain such
       information as details on how its estimates were computed, workload data, cost benefit
       analyses, etc. The Handbook further states that such supplementary information must be
       maintained in order to respond to inquiries on how monies already appropriated are being used
       and to demonstrate the effectiveness of current funds management.

       We were not provided with the supporting documentation during the audit. According to
       Decennial Program management, subject matter experts estimate the level of effort required to
       accomplish budget year goals based on their professional judgment and past experience. The
       2020 Research and Planning Office and DMD review and approve funding requirements that are
       developed by subject matter experts. However, based on discussions with DMD and 2020
       Research and Planning management, decisions made during budget formulation are not
       documented and available for audit. As a result, the budget-formulation process is not
       transparent. In addition, the accuracy of budget decisions cannot be validated to inform future
       budget formulation and reduction decisions.




       FINAL REPORT NO. OIG-14-021-A                                                                     12
      U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL


IV.     Economics and Statistics Administration Should Develop a Stronger Oversight
        Process for Monitoring the Decennial Program’s Progress in Reducing 2020
        Decennial Census Costs
  The Department’s Organization Order 10-9 provides ESA broad oversight authority to
  exercise policy direction for and general supervision over the Census Bureau. ESA is
  responsible for overseeing the Bureau’s management, budget, employment, and risk
  management issues and for integrating the Bureau’s work with the greater statistical goals of
  the Secretary, Department, and other government entities. However, ESA has no specific
  process in place to monitor the R&T goals related to 2020 decennial Census planning. ESA staff
  indicated that, in the past, they have had trouble obtaining information from the Bureau, such as
  the method used to calculate cost savings if specific techniques are utilized in the 2020 Census.

  Given the high cost of the 2010 Census and the recent historical trajectory of decennial
  costs—along with the risks to the program that we have outlined here and in past reports—
  interested stakeholders must be regularly informed regarding costs and potential issues as they
  arise. The Department, ESA, and the Census Bureau should work together to ensure that ESA
  (a) is adequately informed of the Decennial Program’s status and (b) acts accordingly to oversee
  and monitor timelines, goals, and milestones, as well as to inform stakeholders regularly.

  Recommendations
  We recommend that the Director of the Census Bureau develop:

        1.	 A process to ensure project costs reflect actual level of effort (a) in the short term, by
            requiring all Census employees to accurately record project hours through webTA, and
            (b) in the long term, by implementing an activity-based costing system, with appropriate
            internal controls, that reflects actual project cost and reconciles with the accounting
            system.

        2.	 Policies and procedures that require supporting documentation for budget estimate
            decisions be prepared and retained for audit.

        3.	 A process to validate budget estimates that (a) incorporates actual costs recorded in the
            accounting system and (b) uses budget-to-actual-cost information to identify incorrect
            project charges.

  We also recommend that the Director of the Census Bureau and the Under Secretary for
  Economic Affairs develop:

        4. A process to ensure that ESA has sufficient oversight of the 2020 Decennial Program.




  FINAL REPORT NO. OIG-14-021-A                                                                      13
 U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and OIG
Comments
OIG received the Census Bureau’s comments on the draft report, which we include as
appendix C of this final report.

The Census Bureau concurred with all four recommendations. In response to recommendation
2, the Bureau admitted to a “deficiency in the completeness” of documentation supporting
budget estimate decisions. OIG wants to emphasize that the deficiency was a lack of
documentation.

In response to recommendations 3 and 4, the Bureau referred to (a) initiating a review to
determine the accuracy of charges to Decennial projects, in order to correct erroneous
charges in the financial system; and (b) using Monthly Status Review reports to, among other
things, highlight spending issues for stakeholders and oversight agencies. However, because of
the Bureau’s inability to accurately determine the amount of resources actually spent on
projects, any such review or reports will be based on unreliable information. Therefore, OIG
would reiterate that expenditures reported prior to the implementation of corrective actions
will not reflect the actual amount of financial resources spent on any specific project. We
believe stakeholders should be aware of the unreliability of these data.




FINAL REPORT NO. OIG-14-021-A                                                                    14
 U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
We conducted this audit to evaluate the Decennial Program’s implementation of FYs 2013 and
2014 mandatory budget reductions, which forced the Bureau to operate under reduced
spending authority. The Decennial Program currently includes the work performed by the
Decennial Census Programs and 2020 Census directorates, such as R&T and Geographic
Support. The scope of our audit did not include the remaining seven directorates15 or the
regional offices under the Field Directorate. Our audit included three objectives. First, we
evaluated the Decennial Program’s process for implementing mandatory reductions. Next, we
examined the effects of these reductions on the program’s ability to reduce the per-household
cost of the 2020 Census. Finally, we evaluated the oversight roles of the Department and ESA
in this process.

Our methodology included interviewing Decennial Program management and staff to gain an
understanding of the budget development and reduction process at each level within the
organization. In addition, we interviewed the Department’s Office of Budget and ESA
management to understand their role in the budget process. We reviewed documentation
supporting Census Bureau management’s budget reduction decisions, when available, for FYs
2013 and 2014 but were not provided with documentation supporting budget formulation
decisions during this time period.

The following budget guidance and budget development and reduction documentation was
reviewed:

    	   Office of Management and Budget Memorandum M-13-03, Planning for Uncertainty with
         Respect to Fiscal Year 2013 Budgetary Resources

    	   Office of Management and Budget Memorandum M-13-05, Agency Responsibilities for
         Implementation of Potential Joint Committee Sequestration

    	   Office of Management and Budget Memorandum M-13-06, Issuance of the Sequestration
         Order Pursuant To Section 251A of the Balanced Budget and Emergency Deficit Control Act of
         1985, as Amended

    	   Office of Management and Budget Memorandum M-13-11, Ongoing Implementation of the
         Joint Committee Sequestration

    	   Department of Commerce FYs 2014–2018 budget guidance

    	   Department of Commerce Budget and Program Analysis Handbook

15
   The U.S. Census Bureau is organized into nine Directorates: Communications, Administration and Chief
Financial Officer, Information Technology and Chief Information Officer, Field Operations, Economic Programs,
Demographic Programs, Research and Methodology, Decennial Census Programs, and 2020 Census.



FINAL REPORT NO. OIG-14-021-A                                                                                   15
 U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL


       Department of Commerce Accounting Principles and Standards Handbook

We gained an understanding of internal controls over budget formulation and budget reduction
implementation through review of OMB and Departmental guidance, as well as through
interviews with Census Bureau management and staff and review of supporting documentation,
when available. Based on this understanding, we identified significant internal control
weaknesses that are discussed in the findings above. Because of the severity of internal control
weaknesses, we were unable to assess the impact of budget reductions on the Bureau’s goal of
conducting the 2020 Census for less (per household) than the 2010 Census. Therefore, we
limited our review to evaluating the Decennial Program’s process for implementing budget
reductions and the oversight roles of both the Department and ESA in this process.

We obtained data from the Geography Division’s time-tracking system, Primavera, and from
the Bureau’s payroll system, webTA. We were unable to confirm the accuracy and
completeness of data recorded in Primavera because of the lack of internal controls in
Primavera programming and data recording. Because the accuracy of Primavera data could not
be verified, data from the system was only used to illustrate internal control weaknesses (see
finding 1 for details). We obtained Census webTA records for FY 2013 and tested the
completeness of the data through numerous electronic tests and by reconciling salary costs
recorded in webTA to salary totals recorded in the Commerce Business System accounting
data. No significant unresolved discrepancies were identified. Because of the internal control
weaknesses noted in finding 1, we determined that the cost data is unreliable. Therefore, the
use of webTA data in this report is solely for the purpose of illustrating internal control
weaknesses in the Bureau’s process for recording salary costs.

We conducted this audit from July 2013 through December 2013. The audit was conducted
under the authority of the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, dated April 26, 2013, at the Department’s offices in the
Washington, D.C., metropolitan area. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective.




FINAL REPORT NO. OIG-14-021-A                                                                    16
 U.S. DEPARTMENT OF COMMERCE                                                                OFFICE OF INSPECTOR GENERAL



Appendix B: Census Bureau Budget Elements

               Table B-1. U.S. Census Bureau Budget Elements by Category
                                  Salaries and Expenses Appropriation Account

Budget
Activity           Subactivity         Line Item                                        Program

                                                          Current Retail Trade Reports; Current Wholesale Trade Reports;
                                    Business Statistics
                                                          Current Service Trade Reports; Statistical Sample Improvements

                                       Construction       Building Permits Data; Housing Starts Data; Construction Put in
                                        Statistics        Place Data

                                      Manufacturing       Annual Survey of Manufacturers; Industrial Indicators and Business
                                        Statistics        Investment
                    Current
                   Economic
                                         General
                   Statistics                             Business Register; Industry and Commodity Classification; Economic
                                        Economic
                                                          Studies; Quarterly Financial Report; Measuring Electronic Business
                                        Statistics

Current                               Foreign Trade
                                                          Import Statistics; Export Statistics; Trade Monitoring
Surveys and                             Statistics
Statistics
                                       Government         Survey of Government Finance Operations; Survey of Government
                                        Statistics        Employment

                                       Household          Current Population Survey; Survey Methods Development; Survey of
                   Current              Surveys           Income Program Participation
                 Demographic
                  Statistics         Population and
                                                          Population Characteristics; Population Projections; Housing Statistics
                                    Housing Analyses

                    Survey
                 Development        General Research that studies problems related to the Census Bureau’s data collection
                  and Data          efforts
                   Services

                           Salaries and Expenses (Mandatory) Appropriation Account
Budget
Activity           Subactivity         Line Item                                        Program

Survey of        Provide data necessary to determine the impact of welfare provisions of the Personal Responsibility and
Program
                 Work Opportunity Reconciliation Act of 1996
Dynamics

State
                 Produce statistically reliable annual data for each state on the number of low-income children who do not
Children’s
                 have health insurance coverage; support the Department’s Science and Information goal of generating and
Health
                 communicating new, cutting-edge scientific understanding of technical, economic, social, and environmental
Insurance
                 systems
Program




FINAL REPORT NO. OIG-14-021-A                                                                                                  17
 U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL


                           Periodic Censuses and Programs Appropriation Account

Budget
Activity           Subactivity     Line Item                                   Program

                                                  Direction; Content Determination and Design; Mail List
                        Economic Census           Development and Mail-out; Collection and Processing; Publication
Economic                                          and Dissemination
Statistics
Programs                                          Direction; Content Determination and Design; Mail List
                     Census of Governments        Development and Mail-out; Collection and Processing; Publication
                                                  and Dissemination

                                                  Assist elected officials and government program managers in
                    Intercensal Demographic       allocating hundreds of billions of dollars each year by giving them
                           Estimates              updated estimates of the United States population for the country,
                                                  states, counties, cities, and townships

                                                  Initial mail collection; Telephone nonresponse follow-up; Personal
                                    American      visit nonresponse follow-up; Puerto Rico; Group quarters data
                                   Community      collection; IT infrastructure; Data processing, weighting and review;
                                     Surveyb      Data dissemination; Partnership and outreach; Project management;
                     2010
                                                  Methods panel
                   Decennial
Demographic         Census
Statistics                                        Program Development and Management Content, Questionnaires,
                   Programa
Programs                                          and Products; Field Data Collection and Support; Automated Data
                                   2010 Census    Collection, Systems, and Data Capture; Census Design,
                                                  Methodology and Evaluation; Census Test and Dress Rehearsal
                                                  Implementation; Contingency

                                                  Census Frame R&T Priorities (augments the geographic support
                     2020                         program); Enumeration R&T Priorities; Infrastructure R&T Priorities;
                   Decennial     2020 Decennial   Proposed Plans and Deliverables by Investment Area; Program
                    Census          Census        management; Systems Engineering and Integration; Census Frame;
                   Program                        Enumeration; Response Processing; Evaluative Programs;
                                                  Infrastructure

                                                  Current Population Survey, Sponsored Jointly by the Census Bureau
                                                  and the Bureau of Labor Statistics; Consumer Expenditure Survey
                                                  (BLS); Survey of Income and Program Participation (Census Bureau);
                                                  National Crime Victimization Survey, (Bureau of Justice Statistics);
Demographic Surveys Sample Redesign
                                                  American Housing Survey (Department of Housing and Urban
                                                  Development); State Children’s Health Insurance Program Survey,
                                                  (Census Bureau and the BLS); National Health Interview Survey,
                                                  (National Center for Health Statistics)

                                                  Provision of maps, address lists, address and geographic reference
Geographic Support                                files, and associated processing systems needed to meet the
                                                  geographic requirements of all Census Bureau programs

                                                  Provision of day-to-day information technology support for all
Data Processing Systems
                                                  Census Bureau program areas




FINAL REPORT NO. OIG-14-021-A                                                                                           18
    U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL


                                           Working Capital Fund

Budget
Activity           Subactivity      Line Item                                  Program

                                                  Revolving fund that supports a large and increasing reimbursable
                                                  survey line of business performed for other federal agencies (e.g.,
                                                  Current Population Survey, Consumer Expenditure Survey,
                                                  American Housing Survey, National Health Interview Survey,
Working Capital Fund                              National Crime Victimization Survey, National Schools and Staffing
                                                  Survey, Agriculture Census Support, Medical Expenditures Panel
                                                  Survey, National Survey of College Graduates, Commodity Flow
                                                  Survey, National Center for Education Statistics, as well as Poverty
                                                  Statistics, and Other Reimbursable)

Source: Compiled by OIG from U.S. Census Bureau documents
a
 The 2010 Decennial Census Program concluded during FY 2013.

b
 During FY 2013, the American Community Survey was included in the 2010 Decennial Census Program

subactivity; during FY 2014, the American Community Survey was included in the 2020 Decennial Census Program. 





FINAL REPORT NO. OIG-14-021-A                                                                                            19
 U.S. DEPARTMENT OF COMMERCE    OFFICE OF INSPECTOR GENERAL



Appendix C: Agency Response





FINAL REPORT NO. OIG-14-021-A                         20
 U.S. DEPARTMENT OF COMMERCE                                                               OFFICE OF INSPECTOR GENERAL





                                               OIG Draft Report
               U.S. Census Bureau Lacks Accurate and Informative Cost Data to Guide 2020 Census
                             Research through a Constrained Budget Environment
                                         U.S. Census Bureau Response

             The U.S. Census Bureau has reviewed the Office oflnspector General (OIG) Draft Report and
             has the fo llowing comments:

             The Census Bureau is committed to delivering a 2020 Census at a lower cost per household than
             the 2010 Census. The Census Bureau embraces the necessary changes to design and
             implementation, and especially program management to achieve this goal. Notably, these
             changes to program management will not only occur within the 2020 program, but will be
             incorporated enterprise-wide. These changes include dedicated efforts to ensure the program
             managers have the tools they need to manage, including accuracy in recording costs and strong
             controls over the budget formu lation and execution processes.

             Responses and Planned Actions for each of the recommendations -


             Recommendation 1 - A process to ensure project costs reflect actual level of effort (a) in the
             short term, by requiring all Census employees to accurately record project hours through
             webT A, and (b) in the long term, by implementing an activity-based costing system, with
             appropriate internal controls, that reflects actual project cost and reconciles to the
             accounting system.

             We concur with the OIG recommendati on.

             Beginning in April 20 14, the Census Bureau initiated a mandatory, enterprise-wide, wcbTA
             re-training effort aimed at improving the accuracy of the salary costs allocated to projects, and
             generating greater awareness and compliance with all the controls surrounding the accurate
             recording of hours worked. This training emphasizes the responsibilities of the individual
             employees, and educates them on the critical role accurate time accounting plays in program and
             bureau operations and financial performance. Timekeepers and supervisors responsible for
             certifying the accuracy of employee-reported time are receiving additional training about their
             critical role and responsibility. ln addition to increased training, the Census Bureau is updating
             the internal controls, policies, and procedures related to time keeping, ensuring its testing
             procedures for the payroll cycle are appropriate to highlight any other deficiencies, and
             confirming the new training, updated policies, and procedures are sufficient to correct those
             deficiencies identified in the OIG report.

             The Census Bureau will strengthen control s over manual labor adjustments. The labor correction
             process will be refined to ensure all corrections to recorded time arc appropriately reviewed and
             approved before changes to the financial system arc executed. The Census Bureau will
             implement a process to certify labor costs arc correct, similar to a process it currently uses to




FINAL REPORT NO. OIG-14-021-A                                                                                     21
 U.S. DEPARTMENT OF COMMERCE                                                                   OFFICE OF INSPECTOR GENERAL





                                                                                                               2

             validate undelivered orders. The Census Bureau will begin internal control reviews of the
             Regional Offices in fiscal year (FY) 2014, and will complete all reviews by FY 20 15. The
             purpose of these reviews is to ensure fiscal and procedural compliance with Census Bureau
             policies and procedures, and with department and government-wide guidelines and directives.
             Time and attendance policies and procedures will be included in this review.

             The Census Bureau is implementing portfolio management across the enterprise. As a part of
             this effort, the Census Bureau will implement resource-loaded schedules to manage the planning
             and execution of projects within the portfolio. Project managers will create a schedule and
             assign human resources (employees and contractors) to tasks within a schedule. This effort
             consists of the establishment of a resource pool for each project. The resource pool is made up
             of ail of the resources that could be assigned to a project by the project manager. During
             execution, each employee (resource) submits a timesheet that allocates their actual hours worked
             against an authorized task within the project. The project manager must approve any new
             resource to be added to a task, and therefore, reviews and approves any additional resources if
             they arc needed prior to that resource charging to the project. All timeshects must be reviewed
             and approved by the project manager of the project. This process allows the project managers to
             have direct insight into the cost of each task and allows the project manager to monitor overages
             and under spending along with the portion of the task that is completed in near real-time. Within
             the 2020 program, a pilot team will test resource-loaded schedules by the 4th Quarter, 20 14.

             The long-term goal is to integrate the time tracking data into webTA. This integration will
             eliminate the need for any manual reconciliation process between systems. This integration will
             provide alignment between projects within the portfolio management system, actual hours
             performed, and time and attendance data for validation and certification with the webTA system
             and the accounting system.

             The Census Bureau's continued implementation of portfolio management systems will address
             several of this report's findings in addition to ensuring that project costs reflect level of effort. It
             will also decrease the risk that incorrect or fraudulent charges could be recorded without
             detection. Programs can also compare budget estimates to actual costs along with progress
             against deliverables to validate the accuracy of the estimate, if necessary, to inform and to
             provide documentation for revised budget estimates.


             Recommendation 2 - Policies and procedures that require supporting documentation for
             budget estimate decisions be prepared and retained for audit.

             We concur with the O!G recommendation.

             Starting with the FY 2016 budget request, programs are required to provide more complete
             documentation supporting the development of budget, including the basis of estimate (BOE).
             This documentation will be produced by the budget staff or cost estimators in the program areas,
             and then submitted to the Census Budget Divis ion to be reviewed and retained. Prior to this




FINAL REPORT NO. OIG-14-021-A                                                                                           22
 U.S. DEPARTMENT OF COMMERCE                                                               OFFICE OF INSPECTOR GENERAL





                                                                                                              3

             change, the Census Bureau's Budget Division did require the documentation to support object
             class detail at the program, project, and activity level, as well as worksheets and working papers
             in support of the budget. However, a deficiency in the completeness of this documentation was
             noted by the OTO w ith respect to the basis of cost.

             Programs should be responsible for documenting the basis of estimate for all the activities
             included within their program. For example, the 2020 Research and Planning Office, as well as
             multiple divisions, perform activities for the 2020 Census program across the Census Bureau.
             The program budget staff are responsible for producing the documentation for the estimates
             produced by the 2020 Research and Planning Office, and are responsible for validating and then
             providing the basis of cost documentation for the estimates produced by the other divisions w ho
             participate in the 2020 activities (at the Census Bureau, these are referred to as participating
             divisions). The 2020 program was lacking documentation for the basis of estimate for estimates
             provided to the 2020 program by participating divisions. For reconciled estimates, the Office of
             Cost Estimation, Analysis, and Assessment (OCEAA), developer of the independent cost
             estimate, and the program office who developed the program estimate, will prepare the
             documentation j ointly during the reconciliation process. Proper documentation is a necessary
             step in ensuring the cost estimates the Census Bureau produces are credible.

             Recognizing the importance of driving accurate cost data into our fo rmulation process, the
             Census Bureau has begun implementing an effective cost estimation strategy that meets the GAO
             guidelines. OCEAA was established about 12 months ago, and an outside certified cost
             estimator was hired to head the office. Staff dedicated to cost estimation methodology have been
             hired and trained. In the initial phase of this transformation, the Census Bureau implemented
             several pilot programs to test and evaluate a variety of project management systems and
             structures. Implementation of resource-loaded schedules linked to the Census-specific
             framework (called the SLC/MES framework or the System Lifecycle and Mission Enabling and
             Support framework) will provide the baseline data for actual costs used to develop detailed basis
             of estimates for projects in the future.


             Recommendation 3 - A process to validate budget estimates that (a) incorporates actual
             costs recorded in the accounting system and (b) used budget-to-actual-cost information to
             identify incorrect project charges.

             We concur with the OIG recommendation.

             The efforts described above to strengthen controls related to recording cost appropriately in
             webTA in the short term will allow project managers to review existing reports with more
             confidence that these data underlying them are more accurate.

             The 2020 Research and Planning Office has initiated a detailed review to determine the accuracy
             of charges to Decennial projects that have been made by individuals in divisions participating in




FINAL REPORT NO. OIG-14-021-A                                                                                     23
 U.S. DEPARTMENT OF COMMERCE                                                                OFFICE OF INSPECTOR GENERAL





                                                                                                               4

            2020 Census research and testing activities. Incorrect charges identified from this review will be
            corrected in the financial system.

                •   The Research and Planning Office has received rosters from each participating division
                    of employees working on 2020 activities and the projects they are charging.

                •   2020 project managers have independently compiled a roster of employees they know are
                    working on 2020 projects, and the Research and Planning Office is now receiving a
                    monthly report from the Census Budget Division of employees, who are charging any
                    time to 2020 projects.

                •   The program managers will then meet with the division chiefs to review and reconcile the
                    rosters, review actual charges, and initiate corrections for any errors.

            To ensure the transfer of budget resources between programs does not increase the risk incorrect
            charges could be recorded without detection, the 2020 program office will retain and use for
            variance analysis the Continuing Resolution spending plan, and the spending plan put in place at
            the time of the appropriation. This variance analysis will assist in identifying incorrect project
            charges.

             In the long-term, as detailed in the response to the first recommendation, actual project costs will
             be recorded against resource-loaded schedules. This process will faci litate budget to actual cost
             comparison by the project managers in near real time. This information will be used to inform
             future budget estimates. The long-term goal is to integrate the time tracking data into webT A.
             This integration will eliminate the need for any manual reconciliation process between these
             systems.

             OCEAA is responsible for developing and then operating and maintaining a cost data repository
             used to store Lifecycle Cost (LCC) and Earned Value Management (EVM) reports. This
             centralized data repository will make LCC and EVM data collection easier by providing a one­
             stop shop of historical cost data for use in future estimates. Selected projects and programs will
             be required to provide updated LCC annually and report EVM. OCEAA will validate each LCC
             and EVM report to ensure they are using the standardized product based Work Breakdown
             Structure. The program office areas are responsible for ensuring these reports are developed
             using hours from the program management system and the actual costs recorded in the
             accounting system.


             Recommendation 4 - A process to ensure that ESA has sufficient oversight of the 2020
             Decennial Program.

             We concur with the OIG recommendation that the Department, ESA, and Census work together
             to ensure that ESA stays adequately informed about all aspects of the Decennial program in
             order to properly exercise its oversight responsibilities. On a broader scale, various Department




FINAL REPORT NO. OIG-14-021-A                                                                                       24
 U.S. DEPARTMENT OF COMMERCE    OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-14-021-A                         25
 U.S. DEPARTMENT OF COMMERCE                                                             OFFICE OF INSPECTOR GENERAL





                                                                                                    6
            Other Comments -

            Page 2, Paragraph 3; Page 10, Figure 4; Page 18, Appendix B - The Census Bureau has two
            appropriated accounts. The Working Capital Fund is not an appropriated account. It is a
            Revolving Fund. We recommend revising.

            Page 3, 8, 10, and 13 -The report refers to "Activity-Based Costing" in several places. This
            term is used to describe the project management practices and systems used by the Census
            Bureau. Activity-Based Costing is a cost estimation methodology that estimates the cost of
            activities, resources, and cost objects by allocating indirect costs based on cost drivers. The
            Primavera system used by the 2020 program is not an Activity-Based Costing system, but rather
            a Project Portfolio Management System. Given the report context, we recommend using the
            term "Project Management" rather than "Activity-Based Costing."

            Page 6, Paragraph 2 - The report states that without accurate cost information at the project
            level, "The Decennial Program's management cannot make informed decisions when assessing
            return on investment and determining which project schedules should be altered to implement
            budget reductions." While we recognize that we have to improve our cost accounting at the
            project level, we believe that we have a clear understanding of the work that must be adjusted in
            response to budget reductions. Our ability to prioritize our work is a function of our
            understanding of the relationship between each project and the cost drivers of the 2020 Census.
            We have been successful in altering projects, and even stopping work on some projects, to
            ensure that research and testing needed to prove in the innovations that will lead to cost
            reductions in the 2020 Census stays on track.

            Page 6, Paragraph 4 - Recommend changing the reference to the "Budget Office" to "Program
            Budget Staff." This more accurately reflects the source of these spreadsheets.




FINAL REPORT NO. OIG-14-021-A                                   32CENSU32174                                    26
